        OFFICE OF INSPECTOR GENERAL

                                  Catalyst for Improving the Environment



Evaluation Report




        EPA Needs to Assess the Quality
        of Vulnerability Assessments
        Related to the Security of the
        Nation’s Water Supply


        Report No. 2003-M-00013


        September 24, 2003
Report Contributors:    Erin Barnes-Weaver
                        Eric Hanger
                        Fred Light
                        Ricardo Martinez
                        Erin Mastrangelo

Abbreviations


AWWARF            American Water Works Association Research Foundation
CDC               Centers for Disease Control and Prevention
EPA               Environmental Protection Agency
RAM-W             Risk Assessment Methodology for Water
                              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                           WASHINGTON, D.C. 20460


                                                                                                      OFFICE OF
                                                                                                 INSPECTOR GENERAL




                                             September 24, 2003

MEMORANDUM

SUBJECT:         EPA Needs to Assess the Quality of Vulnerability Assessments
                 Related to the Security of the Nation’s Water Supply
                 Report No. 2003-M-00013


FROM:            Jeffrey K. Harris /s/
                 Director for Program Evaluation, Cross-Media Issues

TO:              Tracy Mehan
                 Assistant Administrator for Office of Water


In connection with our ongoing evaluation of the Environmental Protection Agency’s (EPA’s)
activities to enhance the security of the Nation’s water supply, we noted an issue that requires
your immediate attention. Specifically, we believe EPA should promptly analyze the
vulnerability assessments submitted by large utilities pursuant to the Public Health Security and
Bioterrorism Preparedness and Response Act of 2002 (“Bioterrorism Act”) to determine whether
the assessments adequately and comprehensively address terrorist threats.

We propose this action because, during our preliminary research,1 we obtained information that
suggests that problems may exist in:

•   Identifying and prioritizing specific threats – particularly terrorist scenarios; and

•   Assessing the full breadth of a water system’s infrastructure – particularly its distribution
    system.

It is important that EPA promptly implement improvements to the vulnerability assessment
process. According to an EPA official, although approximately 400 large utilities already
submitted their vulnerability assessments, thousands of additional assessments are due from
medium-sized water systems before the end of 2003 and from small-sized utilities by mid-2004.


        1
          The EPA Office of Inspector General is conducting preliminary research on an evaluation of water system
security activities in support of the Agency’s Strategic Plan for Homeland Security.

                                                        1
Therefore, we determined that our observations were significant enough to report to you at this
time because of the time-critical nature of the issues discussed below. The Bioterrorism Act
authorized $160 million for fiscal year 2002 – and such sums as may be necessary for fiscal years
2003 through 2005 – to fund water security activities, including the vulnerability assessments,
and Congress may base future funding decisions on those assessments.

Our observations and suggestions are based on information obtained from our interviews with
water security experts, water utility officials, and EPA headquarters and regional representatives;
attendance at water vulnerability assessment training; and a review of vulnerability assessment
tools, methodologies, and related documents. We are performing our evaluation in accordance
with Government Auditing Standards, issued by the Comptroller General of the United States.

Vulnerability Assessments Provide Foundation for Emergency Response

The nation’s water supply is one of our most vital natural resources. Potential threats to this
resource include contamination with biological, chemical, or radiological agents, or destruction
of physical infrastructure. Presidential Decision Directive 63, issued in May 1998, designated
EPA as the lead agency for assuring the protection of the nation’s water infrastructure. The
terrorist attacks on September 11, 2001 (“9/11”) resulted in passage of the Bioterrorism Act and
its requirement that water utilities submit vulnerability assessments to EPA. EPA’s strategy for
improving water security relies on water utilities to conduct vulnerability assessments, develop or
modify emergency response plans, and institute security enhancements. EPA facilitates these
actions by developing assessment tools and training, compiling a single threat summary, and
providing financial assistance directly to large drinking water systems to conduct vulnerability
assessments and to States for medium- and small-sized utilities.2

Figure 1 illustrates that vulnerability assessments serve as the foundation for emergency response
plans and future security enhancements implemented by water utilities. EPA’s November 2002
Vulnerability Assessment Factsheet notes that vulnerability assessments help water systems
evaluate susceptibility to potential threats and design response plans and corrective actions to
lessen the risk of serious consequences. EPA’s Factsheet further states that an effective
vulnerability assessment serves as a guide to the water utility by providing a prioritized plan for
security upgrades, modifications of operational procedures, and/or policy changes to reduce risks
to a utility’s critical assets. A water security expert at Sandia National Laboratory3 said that
utilities use vulnerability assessments to help determine how well water systems detect security
problems and stop or delay undesired events, as well as measure response capabilities. In


        2
           Following the terrorist attacks of 9/11, EPA received supplemental fiscal 2002 funding of $89 million to
improve the safety and security of the Nation’s water supply. EPA used $53 million of that funding to provide grants
to the largest water utilities (those that serve 100,000 or more people) to assist them in conducting vulnerability
assessments. EPA also provided $21 million in grants to assist States in improving drinking water security for
medium utilities (serving between 50,000 and 99,999 people) and small utilities (serving between 3,300 and 49,999
people).
        3
         A Government-owned facility operated by a contractor for the U.S. Department of Energy’s National
Nuclear Security Administration.

                                                         2
addition to water utilities, vulnerability assessments are routinely used to develop response plans
to address threats to chemical facilities, computer systems, nuclear weapons facilities, the
electrical power industry, and wastewater treatment plants. Figure 1 also illustrates EPA’s
efforts in the water security area and shows the Agency’s primary role in providing vulnerability
and threat assessment assistance.


                                   Figure 1: Water Security Concept Model



                                                                                 Authorized
                         Research and        Technology       Tools, Training,   Funding FY
                         Development        Evaluation and     and Technical     2003 -2005
                                             Verification       Assistance
   Baseline
     Threat
  Information


                                                                                                          Improved
   FY 2002                  Vulnerability                     Emergency                    Security     Security of the
 Appropriations             Assessments                      Response Plans              Enhancements   Nation's Water
                                                                                                        Infrastructure

 Vulnerability
 Assessment                                                         Data
Methodology &                                                     Exchange:
   Training
                                                                  Threats &
                                                                  Response




     EPA               EPA                   Water                  Sector
     Direct          Supporting              Utility              Assurance
     Role              Role                   Role                Coordinator




The Bioterrorism Act required that utilities serving a population greater than 3,300 persons
conduct and submit their vulnerability assessments to EPA according to deadlines based on a
utility’s size.4 Water utilities may conduct their assessments using one of several different
methodologies. EPA provided funding to Sandia National Laboratory and the American Water
Works Association Research Foundation (AWWARF) to develop training on the Risk
Assessment Methodology for Water (RAM-W). RAM-W is one tool utilities can use to


              4
         Water utilities serving 100,000 or more users had to submit their assessments by March 31, 2003;
mid-sized utilities serving between 50,000 and 99,999 users must submit their assessments by December 31, 2003;
and small utilities serving between 3,300 and 49,999 users must submit their assessments by June 30, 2004.

                                                                3
systematically assess vulnerabilities to terrorist and other intentional attacks. The RAM-W
program stems from a vulnerability assessment methodology initially developed by Sandia to
support the national nuclear security mission and from Sandia's involvement in the development
of a risk assessment approach for dams. Sandia provided RAM-W training workshops under an
interagency agreement with EPA. While EPA focused its efforts on the development of
RAM-W, water utilities have other methodologies available to assist them in conducting their
vulnerability assessments. EPA provided assistance to the Association of Metropolitan Sewerage
Agencies, the Association of State Drinking Water Administrators, and the National Rural Water
Association to develop similar tools to help medium and small utilities assess threats to their
water systems.

Regardless of the methodology used, the Bioterrorism Act identified six elements that water
utilities must address in their assessments of vulnerabilities to a terrorist attack or other acts
intended to substantially disrupt the ability to provide a safe and reliable supply of drinking
water:

       (1)   Pipes and constructed conveyances.
       (2)   Physical barriers.
       (3)   Collection; pretreatment; and treatment, storage, and distribution systems.
       (4)   Electronic or computer systems.
       (5)   Use, storage, and handling of chemicals.
       (6)   System operation and maintenance.

EPA issued guidance to utilities interpreting the Bioterrorism Act’s six elements in the Agency’s
November 2002 Vulnerability Assessment Factsheet. While EPA did not specify a particular
format or methodology for the vulnerability assessments, EPA emphasized that the following
guidance applies to the vulnerability assessments conducted by all water utilities regardless of the
size of the population served:

       (1) Characterization of the water system, including its mission and objectives.
       (2) Identification and prioritization of adverse consequences to avoid.
       (3) Determination of critical assets that might be subject to malevolent acts that could
           result in undesired consequences.
       (4) Assessment of the likelihood (qualitative probability) of such malevolent acts from
           adversaries.
       (5) Evaluation of existing countermeasures.
       (6) Analysis of current risk and development of a prioritized plan for risk reduction.

Vulnerability Assessments May Not Necessarily Address Terrorist Threats

The Bioterrorism Act requires community water systems to prepare for and assess vulnerabilities
to terrorist and other intentional acts. However, based on our interviews, we believe that
vulnerability assessments submitted may emphasize traditional, less consequential, and less
costly threats, such as vandalism or disgruntled employees. Therefore, vulnerability assessments



                                                   4
may not necessarily address terrorist scenarios or the events of 9/11 that motivated passage of the
Bioterrorism Act.

The assessment of vulnerabilities is a threat-driven exercise where the design of response actions
are dependent upon the credibility of the defined threat. Neither the Bioterrorism Act nor EPA
identified a minimum threat level against which water utilities should assess their vulnerabilities.
Water security experts view understanding the threat as the driver to vulnerability assessment
methodologies. However, EPA provided limited threat information that resulted in utility
managers having to determine threats and response actions themselves. The RAM-W
methodology instructed managers to define their system-specific threat by considering their own
operational, legal, and financial limitations against the threat information provided by local
intelligence sources.

Water security experts we interviewed stated that EPA did not provide adequate threat
information. Officials at Sandia National Laboratory stated that EPA’s threat guidance missed
the mark because EPA did not set a minimum threat level against which utilities needed to assess
their vulnerabilities. One AWWARF official found EPA’s threat guidance too general and
believed it lacked information utilities could act upon. For example, the document left
responsibility to the utilities in defining subjective terms such as “reasonable protective
measures.” The AWWARF official further stated that EPA made no effort to provide credible
threat information to utilities who needed it. The official said that although the Centers for
Disease Control and Prevention (CDC) worked on compiling a list of potential contaminants,
neither EPA nor CDC distributed this information to utilities. Although EPA incorporated the
CDC information into the Agency’s State of Knowledge report on contaminant threats, EPA
officials considered that report to be too sensitive to share with decision-makers, including utility
managers and congressional staff. Consequently, the AWWARF official noted that the
Bioterrorism Act tasks utilities with conducting vulnerability assessments without proper
credible threat information from EPA.

In the absence of credible threat information from EPA, water utility staff decided for themselves
what threats to include in their vulnerability assessments. For example, one water security
expert, contracted to conduct vulnerability assessments for many large water systems, said that,
despite the RAM-W training provided after 9/11, water utilities focus on vandals, criminals, and
disgruntled employees in their vulnerability assessments. The contractor further stated that EPA
has not provided utilities the intelligence data or threat information required to justify the security
upgrades necessary to defend against terrorism.

While the terrorist attacks of 9/11 and the subsequent passage of the Bioterrorism Act served as
the catalyst for the vulnerability assessments, limited threat information provided by EPA
resulted in utilities subjectively designing their assessments around pre-9/11 threats. All of the
utilities and contractors we interviewed used the RAM-W methodology to complete their
vulnerability assessments. After filtering threat information through the RAM-W methodology,
most of the water security experts we interviewed who were familiar with vulnerability
assessments concluded that the only threats utilities could realistically address were those they
encountered before 9/11. One utility representative we interviewed said that the contractor they


                                                  5
hired to conduct their vulnerability assessment discouraged them from addressing higher threat
levels like terrorism.

Assessment Guidance Does Not Emphasize Unique Water System Vulnerabilities

Neither EPA nor the vulnerability assessment methodologies provided threat guidance that
identified the most vulnerable components unique to water systems. The lack of clear guidance
on what components to focus on resulted in utility managers deciding for themselves whether to
emphasize the vulnerabilities of components, such as distribution systems. This results in
inconsistent assessments and response actions, and may prevent EPA from ensuring future
improvements to water security.

Many experts view water distribution systems as the most susceptible to terrorist attack. Such
experts included the President of the Association of Metropolitan Water Agencies, who
concluded that water distribution systems remain the most vulnerable to terrorist threats and
could spread highly concentrated amounts of poison to a few thousand homes or businesses.
The Chair of the National Academy of Sciences’ Water Science and Technology Board also
found water distribution systems difficult to secure and recognized that, while such systems may
affect a smaller population, mass exposure is not needed if the terrorists’ goal is fear and anxiety.
As a result, public reports of illnesses may be the earliest indicator of deliberate contamination to
distribution systems, according to one vulnerability assessment contractor.

A State water security coordinator said that neither EPA nor the different methodologies
adequately emphasized distribution system threats as the most susceptible components of water
systems to include in vulnerability assessments. While the RAM-W methodology acknowledges
the susceptibility of threats to distribution systems, the methodology only mentions distribution
systems as one of the many critical assets utility managers should seek to protect. Sandia’s
RAM-W program stems from a vulnerability assessment methodology initially developed to
support the national nuclear security mission. The methodology has since been modified to
evaluate the vulnerability to terrorist attack of government buildings, Air Force bases, nuclear
power plants, nuclear processing facilities, prisons, and Federal dams. The State water security
coordinator further said that RAM-W, as an artifact of nuclear- and dam-based methodologies,
may be inappropriate for water utilities given their multiple facility size, unique and often
elaborate distribution systems, and interconnections with other sectors.




                                                 6
Suggestions

EPA has plans to sample the vulnerability assessments to ensure compliance with Bioterrorism
Act requirements. Based on our observations, we offer the following suggestions:

        (1) EPA should consider including in its review a qualitative analysis of vulnerability
            assessments submitted by large utilities to determine whether they adequately
            address the threats envisioned by the Bioterrorism Act. Specifically, EPA’s analysis
            should address whether the large utilities:

               a. identified and prioritized specific threats – particularly terrorist scenarios; and

               b. assessed the full breadth of a water system’s infrastructure – particularly its
                  distribution system.

        (2) If EPA’s analysis confirms our observations, EPA should focus on amending its
            guidance to address the shortcomings identified in this memorandum.

Agency Comments and Office of Inspector General Evaluation

In response to the concerns raised in our draft report, EPA analyzed a sample of the large water
utility vulnerability assessments to determine if they specifically identified and addressed
terrorist scenarios and distribution systems. EPA stated that any lessons learned from this
analysis would be incorporated into guidance and training for medium and small water systems.
Given that vulnerability assessments serve as the foundation for emergency response plans and
future security enhancements, the OIG suggests that EPA monitor all water system submissions
to ensure that vulnerability assessments identify and prioritize specific threats – particularly
terrorist scenarios; and assess the full breadth of a water system’s infrastructure – particularly its
distribution systems.

The full Agency response is provided in Appendix A.

- - -

If you or your staff have any questions regarding this report, please call me at (202) 566-0831.




                                                  7
                                                                                         Appendix A


                                   Agency Response

               UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460



                                           JUN 16 2003
                                                                                             OFFICE OF
                                                                                              WATER




MEMORANDUM

SUBJECT:       Response to OIG Concerns Regarding the Quality of Vulnerability Assessments
               Related to the Security of the Nation’s Water Supply
               DRAFT: Report No. 2003-M-000013

FROM:          G. Tracy Mehan, III /s/
               Assistant Administrator

TO:            Jeffrey K. Harris
               Director for Program Evaluation, Cross-Media Issues
               Office of Inspector General

        I am responding to the issues and concerns presented in your May 16, 2003,
memorandum/report to me on the evaluation of the Environmental Protection Agency’s (EPA)
activities to enhance the security of the Nation’s water supply. You specifically emphasized that
EPA should promptly analyze the vulnerability assessments submitted by large utilities, as
required by the Public Health Security and Bioterrorism Preparedness and Response Act of 2002
(“Bioterrorism Act”), to determine whether the assessments adequately and comprehensively
address terrorist threats. In this analysis, you suggested that EPA consider a qualitative review of
whether the large utilities:

       a.      identified and prioritized specific threats – particularly terrorist scenarios; and

       b.      assessed the full breadth of a water system's infrastructure – particularly its
               distribution system.

I understand that you made these suggestions because your preliminary research indicates there
could be omissions in these areas. If that is the case, you propose that the Agency issue amended
guidance to drinking water systems on conducting vulnerability assessments.

       I believe that you and your staff would benefit greatly from a comprehensive briefing of
the Water Protection Task Force’s efforts over the past 20+ months. Your report focuses on the

                                                8
                                                                                         Appendix A

                                                   2

reactions of numerous stakeholders to EPA’s activities, so I encourage you and your staff to learn
of them first hand from the Task Force’s staff.


Development of Baseline Threat and Vulnerability Assessment Guidance

        Since your memorandum/report cites interviews and discussions with many
representatives in the drinking water community, I want to reiterate EPA’s approach in
developing the guidance to water utilities on assessing vulnerabilities to terrorist attacks and
other intentional acts. First, the water industry, the federal public health, military, agricultural
and food sectors, as well as the intelligence and law enforcement community were closely
involved in identifying and defining risks to public health in relation to such attacks/acts. This
was a critical step in both assisting utilities in developing their baseline threats for vulnerability
assessments and in determining vulnerabilities in a distribution system relative to other
infrastructure components of a water system. We also had a comprehensive process for
developing tools and guidance on available baseline threat information that culminated in a
meeting of national stakeholders in the Summer of 2002. This meeting was conducted to solicit
feedback on issues relevant to conducting vulnerability assessments as well to reviewing and
commenting on baseline threat concerns. In attendance were water industry officials from the
Association of State Drinking Water Administrators (ASDWA), which represents the State
primacy agencies, the American Metropolitan Water Agency (AMWA), which represents large
water systems, and the American Water Works Association (AWWA), which represents the
drinking water utilities, and managers/staff of several large municipalities including the
Metropolitan Water District of Southern California and the City of Newport News, VA. The
FBI sent experts from its National Infrastructure Protection Center to speak and act on behalf of
the federal law enforcement sector and other sectors were represented by participants from the
FDA, CDC, USDA and the US Army.

         The primary purpose of this stakeholder meeting was to discuss a draft version of the
Baseline Threat Information for Vulnerability Assessments of Community Water Systems
(Baseline Threat Document) that was distributed to participants beforehand. This document was
drafted to provide utility managers and their staffs with information necessary for the appropriate
identification and evaluation of vulnerabilities, threats, and kinds of attack that could place the
operation of the water utility (including the distribution system components), staff, and
customers in harms way. One chapter of this document, Determining The Level of Threat,
focused heavily on consideration of the terrorist threat as well as the national resources that are
available to utilities to obtain threat information, e.g., the water information sharing and analysis
center (WaterISAC). (Although in its infancy, the WaterISAC will provide utilities secure,
timely, useable information to support efforts to protect the Nation’s water infrastructure.)
According to my staff, discussion of this chapter was active and intense especially around the
FBI’s assertion that intelligence on terrorist attacks is much more up-to-date and utility-specific
at the field office level. As a result, the prevailing position of the stakeholders was that the
design basis threat selection should be left to individual utilities to account for the uniqueness of


                                                   9
                                                                                       Appendix A

                                                 3

each water system while incorporating the threat information gained from local FBI field offices
and other security experts. Thus, this chapter in the final guidance presents a general description
of the full range of threats, the historical threat perspective of the intelligence community
(including input from the AWWArf and Sandia National Laboratories), and the specific
recommendation that utilities seek participation and insight from local levels of law enforcement
as they conduct their vulnerability assessments.

        More extensive information - - in the form of appendices to the Baseline Threat
Document - - on contamination threats and vulnerabilities was made available to utility
managers. Most large utilities took advantage of this information as they conducted their
vulnerability assessments as are medium and small systems that are currently conducting their
assessments. While these materials cannot leave the secured area in which they are stored and
filed, you and your staff can read and review this document and appendices by contacting the
Water Protection Task Force.

Scope of Vulnerability Assessments

        EPA agrees with the experts you interviewed that contamination of the distribution
system could result in serious public health episodes. In our negotiations and discussions with
the stakeholder organizations to which EPA provided financial support for the development of
methodologies and tools for conducting vulnerability assessments, Agency officials highlighted
this important area to reinforce and augment the RAM-W methodology with respect to
distribution systems. An EPA official attended the train-the-trainer workshop and pointed out to
the trainees that they would need to go beyond the focus of this methodology on distribution
systems in order to consider and assess the vulnerabilities of the entire distribution system. At
the same time, our intent for all the workshops we supported in 2002 was to concentrate on
particular, high priority, areas of vulnerability in drinking water infrastructure and also give
sufficient attention to all other areas as well. The Bioterrorism Act requires system evaluation as
a whole and any emphasis on the distribution system without proper consideration or
endorsement of the entire system could diminish the review of other vulnerable system
components.

        Also, I think it is important to recognize that security of the water sector, like all other
sectors comprising homeland security, is a highly dynamic and evolving arena. Conducting
vulnerability assessments should not be considered a one time endeavor but instead an iterative
activity that water systems will have to review and update on a regular basis. EPA’s approach to
and support of current and future training on methodologies and tools for conducting
vulnerability assessments of water systems will reflect “lessons learned” from 2002 and will
incorporate state-of-the-art approaches developed in the interim.

Ongoing Assistance to Water Utilities

       EPA’s ongoing efforts in water infrastructure protection emphasize and support both

                                               10
                                                                                    Appendix A

                                                4

research on contaminant monitoring approaches and technical assistance for water utilities and
emergency response providers to act in response to contamination of water supplies. Workshops
that will assist systems, serving between 50,000 and 100,000 people, in conducting their
vulnerability assessments will be underway next month. Information and tools to address and
strengthen action against identified vulnerabilities to attack and/or to disrupt water service
entirely are continually being developed and implemented. For instance, the Agency is currently
supporting the dissemination of a hydraulic model capable of predicting fate and transport of
contaminants in distribution systems. This model is coupled with GIS tools to allow a system to
identify locations that could be seriously affected by a “contamination event” and to develop
appropriate proactive as well as response plans. A research strategy, developed jointly by the
Office of Water, the Office of Research and Development and major stakeholders in the water
community, will be published in the near future. This strategy contains an impressive mix of
projects that cover a wide range of water security-related basic research as well as the
development of technologies to detect, minimize, and protect against the introduction of harmful
contaminants into water supplies.

Review of Vulnerability Assessments

        I have already carried out one of the suggestions in your report. Staff (with top secret
clearance) of the Water Protection Task Force has completed a qualitative review of a subset of
the vulnerability assessments submitted by large drinking water systems. OW can brief you on
the results of this review once you have been designated by the Administrator in accordance with
the requirements of the Bioterrorism Act. As stated previously, my staff is ready to give you a
full and detailed account of water security activities.

        I appreciate the opportunity to respond to your draft report. Should you have any
questions or need additional information, please contact Judy Hecht, the Office of Water’s liaison
to the IG’s office, on 564-0475.




                                             11
                                                                            Appendix B

                                    Distribution

Acting Administrator
Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator, Office of Public Affairs
Assistant Administrator, Office of Water
Audit Followup Coordinator, Office of Water
Director, Office of Ground Water and Drinking Water
Chair, Water Protection Task Force
General Counsel
Director, Office of Homeland Security




                                             12
